               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 13-04005-296



             Healthcare Inspection

   Out of Operating Room Airway 

       Management Concerns 

 W.G. (Bill) Hefner VA Medical Center
      Salisbury, North Carolina 





September 30, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
         Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC



                                 Executive Summary 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations made by a confidential complainant
regarding out of operating room airway management (OOORAM) at the W. G. (Bill)
Hefner VA Medical Center (the facility) in Salisbury, NC. The complainant alleged the
facility was not meeting specific requirements of Veterans Health Administration (VHA)
Directive 2012-032, Out of Operating Room Airway Management, issued on
October 26, 2012.
We substantiated that the facility’s local policy for OOORAM was not updated as
required and, when a new policy was implemented, it did not contain all the components
required by VHA Directive 2012-032. We also substantiated that the facility’s OOORAM
training and competency assessments were not consistently completed as required, not
enough staff were authorized to perform OOORAM and some staff performed
OOORAM without authorization, highly portable video laryngoscopes were not always
immediately available, and required analysis after patient care events involving
intubation by unauthorized facility staff did not always occur.
We did not substantiate that there was an unacceptable number of “Code Blues” (an
emergency situation announced in a hospital to indicate a patient requires immediate
resuscitation) and found the facility reviewed events where cardiopulmonary
resuscitation was attempted as required.
During the course of this review, we found the facility had not updated the scope of
practice for a non-licensed independent practitioner who was authorized to perform
OOORAM.
We recommended that the Facility Director ensure the facility’s OOORAM policy is
updated to include all VHA requirements, that processes be strengthened to complete
OOORAM training and competency requirements as outlined by VHA and local policies,
that processes be strengthened to provide OOORAM coverage as required, that highly
portable video laryngoscope equipment is immediately available, that an analysis is
performed for the five identified patient care events in our report, and that the scope of
practices are updated for non-licensed independent practitioners who perform
OOORAM.
Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 7–10 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.



                                                          JOHN D. DAIGH, JR., M.D.
                                                         Assistant Inspector General for 

                                                           Healthcare Inspections



VA Office of Inspector General                                                                  i
          Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC


                                                 Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations made by a confidential complainant
regarding out of operating room airway management (OOORAM) at the W. G. (Bill)
Hefner VA Medical Center (the facility) in Salisbury, NC.

                                             Background 

Facility. The facility is a tertiary care medical center and has over 68,000 unique
veteran patients. Inpatient services include acute medicine, cardiology, surgery,
psychiatry, and physical medicine and rehabilitation, as well as sub-acute and extended
care. The facility is located in Veterans Integrated Service Network (VISN) 6, the
VA Mid-Atlantic Health Care Network.

Airway Management. Airway management is the process of ensuring an open
pathway to the lungs in order to maintain adequate oxygenation. Generally, this
process occurs in the operating room (OR) prior to induction of an anesthetic agent that
paralyzes a patient’s ability to maintain normal breathing. OR anesthesia staff are
highly trained and experienced to provide this service.

The requirement for emergency airway management arises outside the OR when a
patient experiences respiratory distress, and is generally referred to as OOORAM.

A major challenge in airway management is the placement of an endotracheal tube,
which is inserted through the mouth or nose into the trachea (intubation). If inserted
incorrectly, the patient may not receive proper oxygenation, which could result in brain
damage or death. Adverse events may occur as a result of inadequate or difficult
ventilation or improper esophageal, versus endotracheal, intubation. The risk for
adverse outcomes increases when staff are not well trained or competent to perform
emergency airway support.

VHA OOORAM Policy. On August 8, 2005, Veterans Health Administration (VHA)
issued Directive 2005-031, Out of Operating Room Airway Management. The Directive
outlined OOORAM requirements, such as appropriate competencies of practitioners
who performed OOORAM, and the use of devices to confirm successful endotracheal
tube placement. On October 26, 2012, VHA rescinded Directive 2005-031 and issued
Directive 2012-032, Out of Operating Room Airway Management. The updated
directive included a requirement (among others) that each non-exempt facility1 have a
written policy in place no later than October 31, 2013.

VHA Directive 2012-032 outlines certain mandatory requirements that must be in the
facility’s OOORAM policy. The Directive requires that facilities have a process for
ensuring the competency of staff performing OOORAM during all hours when patient

1
 Exempted facilities are those that call 911 and offer only basic life support until relieved by 911 Emergency
Medical Services responders.


VA Office of Inspector General                                                                                   1
          Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC

care is provided. The Directive also requires that staff are observed intubating patients
to ensure competency and states that clinical competence cannot be assumed based
on Advance Cardiac Life Support2 certification, or job title, which includes physicians.

Allegations. The complainant contacted the OIG Hotline Division and alleged the
facility was not in compliance with VHA Directive 2012-032. The allegations were
referred to VHA in July 2013 and again in December 2013. After evaluating VHA’s
responses, the Office of Healthcare Inspections initiated a review in April 2014.

The complainant alleged the following:

   The facility’s OOORAM policy was not updated timely. 

   OOORAM training and competency assessments were not completed as required. 

   Not enough competent staff were available to perform OOORAM. 

   Not enough OOORAM equipment was available. 

   Specific patient care events were not reviewed as required. 

   The number of “Code Blues”3 was unacceptably high.


                                Scope and Methodology 

We conducted a site visit April 22–23, 2014. We interviewed the facility Director, Chief
of Staff, and Nurse Executive/Associate Director for Patient Care Service. We also
interviewed the Chiefs of Anesthesia, Medicine, and Surgery Services; the Chief of
Performance and Quality; the lead hospitalist; the Respiratory Therapy Service
Manager; and the Emergency Department (ED) section Chief. We also interviewed
other clinical and administration staff.

We reviewed facility local policies and VHA policies, directives, and handbooks;
patients’ electronic health records; training and competency records; quality
management information; and other relevant documents.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




2
  Airway management is part of Advanced Cardiac Life Support training.

3
  An emergency situation in which a patient is in cardiopulmonary arrest that requires a team of providers to rush to 

the specific location and begin immediate resuscitative efforts is called a Code Blue team at some facilities. 



VA Office of Inspector General                                                                                       2
          Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC



                                     Inspection Results 

Issue 1. Facility Policy

We substantiated the allegation that the local facility OOORAM policy was not updated
as required.

At the time of the complaint, the facility’s local OOORAM policy, dated March 12, 2012,4
had not been updated as required. On April 15, 2014, the facility implemented a new
policy for OOORAM.5 However, we determined the new policy did not contain all
required components outlined in VHA Directive 2012-032. For example, the facility
policy did not require that highly portable video laryngoscopes6 be immediately available
at all times for use by clinicians or that clinicians who have previously been determined
competent for OOORAM be reassessed for continued competency at the time of
reappraisal of privileges or Scopes of Practice.

VHA Directive 2012-032 required that each facility, unless exempt, have a written policy
that included specific, mandatory components in place no later than October 31, 2013.

Issue 2. Training and Competency

We substantiated the allegation that the facility’s OOORAM training and competency
process was not consistently completed as required. We reviewed training and
competency documentation and found 13 (43 percent) of the 30 staff authorized by the
facility to perform OOORAM at the time of our review did not complete the required
didactic program or procedural skills validation.

VHA Directive 2012-032 requires that facilities develop a process for assessing and
establishing competency for staff performing OOORAM. The required training and
assessment of competency includes the successful completion of a didactic program
with specific content and written test and the validation of cognitive and procedural
skills.7

Issue 3. Staffing

We substantiated the allegation that an insufficient number of OOORAM authorized
staff was available to ensure safe airway management 24 hours-a-day, 7 days-a-week
(24/7) for the facility.

Clinical leaders stated that OOORAM is an essential job requirement for both
ED providers and hospitalists and that the hospitalists have the primary responsibility to
provide OOORAM for the facility. The facility policy requires that all hospitalists are

4
  Medical Center Memorandum 659-112A-1, Out-Of-Operating Room Airway Management, March 12, 2012. 

5
  Medical Center Memorandum 659-112A-1, Out-Of-Operating Room Airway Management, April 15, 2014. 

6
  A video laryngoscope uses digital technology to allow the clinician to view the larynx on a screen during

intubation.

7
  VHA Directive 2012-032. 



VA Office of Inspector General                                                                                 3
         Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC


members of the “Code Blue” team and respond to medical emergencies, which includes
the loss of airway.8

To evaluate OOORAM coverage, we reviewed the ED providers’ and hospitalists’
January 1–31, 2014, work schedules. We determined the ED staff were not able to
provide appropriate 24/7 OOORAM coverage during 4 (13 percent) of the 31 days
reviewed, and hospitalist staff were not able to provide appropriate 24/7 OOORAM
coverage during 18 (58 percent) of the 31 days reviewed. Overall, we determined the
facility had no authorized ED and hospitalist staff to perform appropriate 24/7 OOORAM
coverage during 4 (13 percent) of the 31 days reviewed.

VHA requires that a qualified physician is present at all times in the ED and is not to be
responsible for any inpatient activities, unless certain requirements are met9 and the
facility has a formal waiver from VHA.10 The facility does not have a waiver. Although
VHA does not require that all providers are trained, facilities must have a sufficient
number of providers deemed competent in OOORAM to respond to respiratory
compromise events, including cardiopulmonary arrest, during all hours when patient
care is provided.11

Issue 4. Highly Portable Video Laryngoscopes

We substantiated the allegation that highly portable video laryngoscopes were not
always immediately available at the time of allegation.

We learned that, at the time of the complaint, only one portable video laryngoscope was
immediately available in the facility. It was located in the ED. In March 2014, the facility
obtained another video laryngoscope, which the intensive care unit and medical/surgical
unit shared. Clinical leaders stated they submitted documentation for more video
laryngoscopes in April after a review of medical emergency data identified a need for
additional portable video laryngoscopes to ensure immediate availability.

VHA requires that highly portable video laryngoscope equipment is immediately
available on a 24/7 basis.12

Issue 5. Specific Patient Care Events Analysis

We substantiated the allegation that staff without authorization to perform OOORAM
performed intubations and that the facility did not analyze these specific patient care
events as required.

The complainant provided one patient care event, and the facility provided an additional
four patient care events. We determined the five patients were intubated by

8
  Medical Center Memorandum 659-11-26, Emergency Response System, January 21, 2014. 

9
  Requirements vary; an example is a designation of Veterans Rural Access Hospital. 

10
   VHA Handbook 1101.04, Medical Officer of the Day, August 30, 2010. 

11
   VHA Directive 2012-032. 

12
   VHA Directive 2012-032. 



VA Office of Inspector General                                                                 4
          Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC


unauthorized staff, and the facility was unable to provide documentation that an analysis
was completed for these specific patient care events.

VHA policy allows that, in extraordinary circumstances where an individual with the
required competency in OOORAM is not available, clinicians may exercise their
judgment as to the appropriate response with the overarching goal being the care and
safety of the patient. VHA Directive 2005-031 required that the facility analyze why the
vulnerability existed and initiate appropriate system fixes to minimize a repeat
occurrence. VHA Directive 2012-032, which replaced Directive 2005-031, requires that
facilities complete a Root Cause Analysis and that appropriate system fixes are
completed when these patient care events occur.

Issue 6. “Code Blue” Reviews

We did not substantiate that there was an unacceptable number of “Code Blues” at the
time of the allegation. We also determined the facility reviewed each episode of care
where resuscitation was attempted as required.

For the period 2006 through 2014, we reviewed from tracking, trending, and analysis of
“Code Blue” data. We noted variations year to year, with an increase in the number of
code events from 2011 to 2012 and then a decrease from 2012 to 2013. We did not
determine the increase in code events in 2012 as unacceptable when compared to the
data and analysis for other years.

We found the facility reviewed each episode of care where resuscitation was attempted
as required by VHA.13

Issue 7. Scope of Practice for Respiratory Therapists

During the course of this review, we found the facility had not updated the scope of
practice for one of two respiratory therapists (RTs) who were authorized to perform
OOORAM. VHA requires that non-licensed independent practitioners (non-LIPs), such
as RTs, must have OOORAM competencies present in the establishment of a scope of
practice.14

                                          Conclusions 

We substantiated the allegation that the facility’s 2012 local OOORAM policy was not
updated as required, and when a new policy was implemented, it did not contain all
required components.       We also substantiated the allegations that the facility’s
OOORAM training and competency assessments were not consistently completed as
required, that there were periods of time when an OOORAM authorized staff was not
available as required, that highly portable video laryngoscopes were not always readily

13
   VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility 

Cardiopulmonary Resuscitation Committees, October 17, 2008. 

14
   VHA Directive 2012-032. 



VA Office of Inspector General                                                                               5
         Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC


available, that unauthorized staff performed intubations and that those events were not
analyzed as required.

We did not substantiate that there was an unacceptable number of “Code Blues,” and
we found the facility reviewed each episode of care where resuscitation was attempted
as required by VHA.

During the course of this review, we found the facility had not updated the scope of
practice for a non-LIP who was authorized to perform OOORAM.

We made six recommendations.

                                 Recommendations 

1. We recommended that the Facility Director ensure that the facility’s out of operating
room airway management policy is updated to include all Veterans Health
Administration requirements.

2. We recommended that the Facility Director ensure that processes be strengthened
to complete out of operating room airway management training and competency
requirements as outlined by Veterans Health Administration and local policies.

3. We recommended that the Facility Director ensure that processes be strengthened
to provide out of operating room airway management coverage as required.

4. We recommended that the Facility Director ensure that highly portable video
laryngoscope equipment is immediately available.

5. We recommended that the Facility Director ensure that analysis of the five patient
care events identified in this report is completed as required.

6. We recommended that the Facility Director ensure that the scopes of practice are
updated for non-licensed independent practitioners who perform out of operating room
airway management.




VA Office of Inspector General                                                                 6
         Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC
                                                                                     Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


     Date: September 3, 2014

    From: Director, VA Mid-Atlantic Health Care Network (10N6)

 Subject: 	Draft Report – Healthcare Inspection—Out of Operating Room Airway
           Management, W.G. (Bill) Hefner VA Medical Center, Salisbury, North
           Carolina

        To: Director, Region Office of Healthcare Inspections (54KC)
             Director, Management Review Service (VHA 10AR MRS OIG Hotline)


         1.   The attached subject report is forwarded for your review and further
         action. I reviewed the response of the W. G. (Bill) Hefner VA Medical
         Center (VAMC), Salisbury, North Carolina and concur with the facility’s
         recommendations.

         2.  If you have further questions, please contact Lisa Shear, Quality
         Management Officer at (919) 956-5541.




            DANIEL F. HOFFMANN, FACHE




VA Office of Inspector General                                                                 7
         Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC
                                                                                     Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs                                  Memorandum


     Date: August 27, 2014

     From: Facility Director

 Subject: 	Draft Report – Healthcare Inspection—Out of Operating Room Airway
           Management, W.G. (Bill) Hefner VA Medical Center, Salisbury, North
           Carolina

       To: Director, VA Mid-Atlantic Health Care Network (10N6)


       1. I have reviewed the draft report of the Office of Inspector General and I
       concur with the recommendations.

       2. I have included my response in the attached Director’s Comments.

       3. Please contact me if you have any questions or comments.




          Kaye Green FACHE 

          Director, W. G. (Bill) Hefner VA Medical Center (659/00) 





VA Office of Inspector General                                                                 8
         Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC



                             Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Facility Director ensure that the
facility’s out of operating room airway management policy is updated to include all
Veterans Health Administration requirements.

Concur

Target date for completion: October 1, 2014

Facility response: Medical Center Memorandum 112A-1 Out of Operating Room Airway
Management is currently under revision to ensure all VHA requirements are included.

Recommendation 2.       We recommended that the Facility Director ensure that
processes be strengthened to complete out of operating room airway management
training and competency requirements as outlined by Veterans Health Administration
and local policies.

Concur

Target date for completion: October 1, 2014

Facility response: A formal competency assessment document for out of operating
room airway management was developed. The document includes each requirement
that must be met prior to granting privileges. Once the facility subject matter expert (the
Anesthesiology Chief) has validated all requirements have been met, the signed
document will be presented to the Professional Standards Board. The board will utilize
the completed document in their decision when recommending privileges for out of
operating room airway management. The document will be added to Medical Center
Memorandum 112A-1 as attachment D.

Recommendation 3.      We recommended that the Facility Director ensure that
processes be strengthened to provide out of operating room airway management
coverage as required.

Concur

Target date for completion: Completed

Facility response: Hospitalists have the primary responsibility for providing out of
operating room airway management for the facility during respiratory compromise
events, including cardiopulmonary arrest. Fifteen Hospitalists have been identified as
needing out of operating room airway management privileges and 15 (100 percent)


VA Office of Inspector General                                                                 9
         Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC


have completed all required components of the training. The facility now has a
sufficient number of qualified providers available 24/7 to perform out of operating room
airway management.

Recommendation 4. We recommended that the Facility Director ensure that highly
portable video laryngoscope equipment is immediately available.

Concur

Target date for completion: Completed

Facility response:  In February 2014 the Code Blue Committee identified five
departments in need of video laryngoscopes. The facility has received the additional
video laryngoscopes now supplying each department identified with a video
laryngoscope immediately available if needed.

Recommendation 5. We recommended that the Facility Director ensure that analysis
of the five patient care events identified in this report is completed as required.

Concur

Target date for completion: November 15, 2014

Facility response: An aggregate Root Cause Analysis will be completed to include an
analysis of all five cases.

Recommendation 6. We recommended that the Facility Director ensure that the
scopes of practice are updated for non-licensed independent practitioners who perform
out of operating room airway management.

Concur

Target date for completion: October 1, 2014

Facility response: All Respiratory Therapists eligible for out of operating room airway
management privileges will be required to complete all education and training on the
Competency Assessment for Out of Operating Room Airway Management in its
appropriate sequence. The Competency Assessment will be signed by the facility
subject matter expert, returned to the Respiratory Therapist and presented to the
Supervisory Respiratory Therapist. Once the Supervisory Respiratory Therapist
receives the signed competency document, they will amend the Respiratory Therapist
Functional Statement to include out of operating room airway management duties. The
Functional Statement will be signed by the Respiratory Therapist, the Supervisory
Respiratory Therapist, and by the Chief - Critical Care. Once all signatures have been
obtained, the Functional Statement will be sent to Human Resources and presented to
the Professional Standards Board to ensure appropriate documentation in the minutes.




VA Office of Inspector General                                                                10
         Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC
                                                                                     Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720. 

Contributors             James Seitz, RN, MBA, Team Leader

                         Julie Kroviak, MD

                         Cindy Niemack-Brown, CMSW, LMHP
                         Larry Selzler, MSPT




VA Office of Inspector General                                                                11
         Out of Operating Room Airway Management Concerns, W.G. (Bill) Hefner VAMC, Salisbury, NC
                                                                                     Appendix D

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Mid-Atlantic Health Care Network (10N6)
Director, W.G. (Bill) Hefner VA Medical Center (659/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Burr, Kay R. Hagan
U.S. House of Representatives: 	Howard Coble, Renee Ellmers, Virginia Foxx,
 Richard Hudson, Patrick T. McHenry, Mark Meadows, Robert Pittenger



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                12
